Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Chicago, Illinois Police Department

GR-50-03-001


December 2002
Office of the Inspector General
Note:   On September 30, 2002, the General Counsel of the Office of the Inspector General (OIG) advised the OIG Audit Division that 42 U.S.C. § 3796dd-2 limited the term of an Office of Community Oriented Policing (COPS) grant for the hiring of law enforcement officers to five years and the term of a grant for other purposes to three years; this opinion considered any grant renewal or extension periods to be included in the term limitations.  As a result, grant periods with terms that exceeded those in statute were considered to be in violation by the OIG and were addressed accordingly in our audit reports.  However, the OIG General Counsel, on June 13, 2003, rescinded his earlier opinion and now believes that the use of a "no-cost" grant period extension, in and of itself, is not inconsistent with the above statute reference.  As a result, findings developed solely because of this issue, if any, are no longer viewed as a violation of statute and the associated recommendation has been closed with no further action required by the entity audited or the COPS Office.
[This note added on 7/21/2003]


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Chicago Police Department (Chicago PD).  The purpose of the grants is to enhance community policing.  The Chicago PD was awarded a total of $91,926,550 to hire 896 new police officers and redeploy the equivalent of 497.1 existing full-time police officers from administrative duties to community policing.
We reviewed the Chicago PD's compliance with seven essential grant conditions.  We found the Chicago PD was in compliance with the budgeting, hiring, and retention of officers as well as the reimbursement and community policing requirements of its hiring grants.  We also found it complied with the matching fund requirements for both its hiring and redeployment grants.
The Chicago PD received three MORE Grant awards (MORE 95, 96, and 98) totaling $4,726,235 to redeploy the equivalent of 497.1 existing full-time police officers to community policing.  We found material non-compliance with statutory and COPS requirements for these awards.  As a result, we question the $1,140,823 that has been reimbursed to the Chicago PD for these awards and recommend that the remaining $3,585,412 in unspent funds be put to better use.1

The Chicago PD was reimbursed $362,847 in unallowable costs under its MORE 96 grant for civilian positions that were not backfilled, did not result in redeployment, or that exceeded the $25,000 per civilian limit.
The Chicago PD also received $777,976 in reimbursements for its three MORE grant awards that have not resulted in material accomplishment of the grants' objectives.  These grants provided that Chicago PD was to redeploy the equivalent of 497.1 existing full-time police officers to community policing.  At the time of our audit, these grants ranged in age from more than 3 years to almost 7 years old, exceeding the 3-year statutory grant period.  Moreover, only 38 of the required positions had been redeployed.
The Chicago PD failed to expend the remaining $3,585,412 in grant funds within the time limit established by Congress and in accordance with the COPS Office's requirement that grant funds be obligated during the term of the grant and be expended within 90 days after the end of the grant.  Although the COPS Office extended the grant beyond the statutory time limit, it did not have authority to do so.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.